No. _________

IN THE
SUPREME COURT OF THE UNITED STATES
___________________
LEAGUE OF WOMEN VOTERS OF MICHIGAN, et al.,
Plaintiffs,
v.
JOCELYN BENSON,
in her official Capacity as Michigan Secretary of State,
Defendant,
and
LEE CHATFIELD,
in his official capacity as Speaker of the Michigan House
of Representatives and Aaron Miller, et al.,
Intervenor-Defendants.
___________________

CONGRESSIONAL AND STATE HOUSE INTERVENORS’ APPLICATION FOR AN
EXTENSION OF TIME IN WHICH TO FILE A JURISDICTIONAL STATEMENT
___________________
Holtzman Vogel Josefiak
Torchinsky PLLC
Jason B. Torchinsky
Counsel of Record
Shawn T. Sheehy
Phillip M. Gordon
45 North Hill Drive, S 100
Warrenton, Virginia 20106
(540) 341-8800
JTorchinsky@hvjt.law
ssheehy@hvjt.law
pgordon@hvjt.law
Attorneys for Applicants

Clark Hill PLC
Charles R. Spies
Brian D. Shekell (P75327)
David M. Cessante (P58796)
212 E. Cesar Chavez Ave.
Lansing, MI 48906
(517) 318-3100
cspies@clarkhill.com
bshekell@clarkhill.com
dcessante@clarkhill.com

Consovoy McCarthy
Park, PLLC
William Consovoy
3033 Wilson Boulevard
Suite 700
Arlington, VA 22201
(703) 243-9423
will@consovoymccarthy.com
Attorneys for Speaker Chatfield
and Representative Aaron Miller

Peter B. Kupelian (P31812)
Kevin A. Fanning (P57125)
151 S. Old Woodward, Suite 200
Birmingham, MI 48009
(248) 642-9692
pkupelian@clarkhill.com
kfanning@clarkhill.com
Attorneys for Applicants

Collectively, counsel for Applicants/Defendants Lee Chatfield, in his official capacity as Speaker of the Michigan House
of Representatives; Representative Aaron Miller, in his official capacity; and Congressmen Fred Upton, Jack Bergman,
Tim Walberg, Bill Huizenga, John Moolenaar, and Paul Mitchell in their official capacities as Members of the Michigan
Congressional Delegation.

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE UNITED STATES
SUPREME COURT AND CIRCUIT JUSTICE FOR THE SIXTH CIRCUIT:
Congressional and State House Intervenors (“Applicants”) respectfully request
an extension of time to file a jurisdictional statement. Sup. Ct. R. 18.3. The earliest
deadline for Applicants to file their jurisdictional statement is Monday, July 1, 2019,
which is sixty days1 from Tuesday, April 30, 2019, the date when the Applicants filed
their notice of appeal, (App. A), of the opinion and final judgment, (App. B), of the
United States District Court for the Eastern District of Michigan (“District Court”) in
League of Women Voters of Michigan, et al. v. Benson, Case No. 2:17-cv-14148, which
invalidated portions of Michigan’s redistricting plan and ordered that special
elections be held in 2020 for any state senate district either enjoined by the decision
or modified by the remedial plan. That decision was stayed by this Court on May 24,
2019. See Lee Chatfield, et al. v. League of Women Voters of Michigan, et al., No.
18A1171 (stay granted May 24, 2019). For good cause set forth herein, Applicants
ask that this deadline be extended by forty-five days so that the new deadline to file
Applicants’ jurisdictional statement would be August 15, 2019.2

Pursuant to Supreme Court Rule 30.1, two days were added to this calculation to move the due date
from Saturday, June, 29, to the “next day that is not a Saturday, Sunday, federal legal holiday, or day
on which the Court building is closed,” namely, Monday, July 1, 2019.
1

Applicants previously stated that they intended to file their forthcoming jurisdictional statement no
later than June 3, 2019. Applicants’ Emergency Mot. Stay at n.2. However, because this Court has
alleviated the danger of imminent irreparable harm to the State of Michigan, its citizens, and the
Applicants by granting Applicants’ application for a stay of the District Court’s order, Applicants now,
for the reasons set forth herein, respectfully request additional time to file the jurisdictional statement.
2

1

BACKGROUND
This case arises from the District Court’s invalidation of 34 congressional, state
house, and state senate districts included within Michigan’s legislative and
congressional districting plan that was signed into law on August 9, 2011 (the
“Current Apportionment Plan”) and challenged by the League of Women Voters of
Michigan and individually named Plaintiffs (“Respondents”). Respondents brought
claims alleging that Michigan’s congressional, state senate, and state house districts
violated the United States Constitution. See App. B at 1. Respondents requested that
the District Court permanently enjoin 34 challenged districts. Id. at 2; see also 28
U.S.C. § 2284(a).
After a four-day bench trial, and after receiving post-trial briefing, the District
Court granted Respondents' requested relief and enjoined all the challenged
congressional and legislative districts. App. B at 144. The District Court found that
the Current Apportionment Plan violates Plaintiffs’ First and Fourteenth
Amendment rights because it deliberately dilutes the power of their votes by placing
them in districts that were intentionally drawn to ensure a particular partisan
outcome in each district. App B at 3. The District Court also found that the Current
Apportionment Plan injures Plaintiffs’ First Amendment right to association by
discriminating against them and their political party and subjecting them to
“disfavored treatment by reason of their views.” Id.

OPINIONS BELOW
Applicants appeal the judgment and opinion from the three-judge court of the
Eastern District of Michigan. The opinion is reproduced fully in the Appendix and is
reported at League of Women Voters of Mich., et al. v. Benson, et al., No. 17-14148,
2019 U.S. Dist. LEXIS 70167, __ F.Supp. 3d __, 2019 WL 1856625 (E.D. Mich. April
25, 2019) (three-judge court).
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1253.
REASONS EXTENSION IS JUSTIFIED
Supreme Court Rule 18.3 provides that “[a]n application to extend the time to
file a jurisdictional statement shall set out the basis for jurisdiction in this Court;
identify the judgment sought to be reviewed; include a copy of the opinion, any order
respecting rehearing, and the notice of appeal; and set out specific reasons why an
extension of time is justified.” Sup. Ct. R. 18.3. The specific reasons why an extension
of time is justified are as follows:
1.

Prior to this Court granting a stay of the District Court’s order on May

24, 2019, the schedule of the remedial phase in this case was extremely compressed.
The District Court issued its order on April 25, 2019, requiring that new maps be
drawn, proposed, and passed by the legislature no later than August 1, 2019. In order
to accomplish this, the legislature would have had to transmit legislation approved
by both chambers to the Governor by July 18, 2019. This tight and demanding
schedule meant that Applicants necessarily were occupied with complying with the

heavy demands of the compressed legislative timeframe while pursuing all legal
options including an appeal and stay the order of the District Court.
2.

The Michigan Legislature has been in session each week since the

District Court issued its order on April 25, 2019, and will be in session each week in
June. During this time, the legislature has been faced with a number of competing
legislative priorities including, inter alia, passing a budget, and considering
important legislation on gas taxes to pay for infrastructure repairs, and water
quality. See Applicants’ Emergency Mot. Stay at 22-23, No. 18A1171 (filed May 10,
2019). The legislature has also passed important legislation during this time; for
example, on May 24, 2019, it passed a “landmark bill that would cut the country’s
highest auto insurance premiums by letting drivers forego a one-of-a-kind
requirement to buy unlimited medical coverage for crash injuries.” Dave Eggert, Bill
to Cut Auto Insurance Premiums Passed by Michigan Legislature, INSURANCE
JOURNAL (May 28, 2019).3 This means that, in addition to Applicants’ efforts to
address the order, they have been, and will be, occupied with the everyday work
necessary to participate in, and prepare for, legislative sessions.
3.

Similarly, the United States House of Representatives has been in

session nearly continuously since the District Court’s ruling, and the time and
attention of the congressional delegation has been focused on pending matters in
Washington.

3

https://www.insurancejournal.com/news/midwest/2019/05/28/527583.htm

4.

In sum, the heavy demands of complying with, and seeking an appeal

and stay of the opinion challenged in this appeal; and the regularly scheduled
workload of state legislative leadership and the House of Representatives; and the
demands of other cases before this Court, have will occupy much of the sixty days
afforded by the rules to applicants considering an appeal. Applicants seek a fortyfive day extension to cope with these demands.
5.

The requested extension also is necessary to accommodate pressing

deadlines in Applicants’ counsel’s other matters.
6.

In addition to the extraordinary burdens that District Court’s order has

placed on the Applicants’ competing priorities over the past month, the requested
extension would allow Applicants the opportunity to review and consider the impact
of this Court’s forthcoming rulings in Rucho, No. 18-422 and Benisek, No. 18-726,
which will be issued within weeks. The dispositive issues common to both Rucho and
Benisek, standing and justiciability, are the same dispositive issues Congressional
and State House Intervenors bring to this Court and the rulings from the Court in
Rucho and Benisek, unless those decisions are affirmed in all regards, will necessarily
impact the legal analysis of this matter. See Applicants’ Emergency Mot. Stay at 78, No. 18A1171 (filed May 10, 2019). For this reason, Applicants’ jurisdictional
statement will necessarily benefit from this Court’s rulings in those matters and the
time to incorporate analysis of the impact of those cases.
7.

The District Court’s decision warrants this Court’s review because the

issues in this case—whether Plaintiffs have standing to bring their claims, whether

Plaintiffs’ claims are justiciable, and, if those claims are justiciable, whether the
standards adopted by the District Court are manageable—remain open questions and
are the same issues that this Court is currently considering in Rucho and Benisek.
The reasons meriting this Court’s review are further detailed in the Congressional
and State House Intervenors’ Emergency Application For Stay Of Appeal To This
Court (18A1171) filed with this Court on May 10, 2019.
CONCLUSION
For the foregoing reasons and good cause shown, Applicants respectfully
request that this Court grant this application for a 45-day extension of time to file a
jurisdictional statement.
Holtzman Vogel Josefiak
Torchinsky PLLC

Jason B. Torchinsky
Counsel of Record
Shawn Sheehy
Phillip Gordon
45 North Hill Drive, Suite 100
Warrenton, Virginia 20186
(540) 341-8800
JTorchinsky@hvjt.law
ssheehy@hvjt.law
pgordon@hvjt.law
Attorneys for Applicants
Consovoy McCarthy Park, PLLC
William Consovoy
3033 Wilson Boulevard, Suite 700
Arlington, VA 22201
(703) 243-9423
will@consovoymccarthy.com
Attorneys for Applicants Speaker Chatfield
and Representative Aaron Miller

Clark Hill PLC
Charles R. Spies
Brian D. Shekell (P75327)
David M. Cessante (P58796)
212 E. Cesar Chavez Ave.
Lansing, MI 48906
(517) 318-3100
cspies@clarkhill.com
bshekell@clarkhill.com
dcessante@clarkhill.com
Attorneys for Applicants
Peter B. Kupelian (P31812)
Kevin A. Fanning (P57125)
151 S. Old Woodward, Suite 200
Birmingham, MI 48009
(248) 642-9692
pkupelian@clarkhill.com
kfanning@clarkhill.com
Attorneys for Applicants

